                                                 January 10, 2007




MEMORANDUM TO:                  Luis A. Reyes
                                Executive Director for Operations



FROM:                           Stephen D. Dingbaum /RA/
                                Assistant Inspector General for Audits


SUBJECT:                        MEMORANDUM REPORT: AUDIT OF NRC’S
                                REGULATION OF NUCLEAR FUEL CYCLE
                                FACILITIES (OIG-07-A-06)


This memorandum is the second and concluding report to be issued by the Office
of the Inspector General during its audit of NRC’s regulation of nuclear fuel cycle
facilities.1 Auditors identified an issue that warrants your attention.

NRC could improve upon its regulation of nuclear fuel cycle facilities by
developing and implementing a framework for its oversight program that is
modeled after a structured process, such as the Reactor Oversight Process
(ROP).

BACKGROUND

NRC’s safety oversight program for major fuel cycle facilities includes inspections
focused on reviews of safety, safeguards, and environmental protection. This
program applies to gaseous diffusion plants, highly enriched uranium fuel
fabrication facilities, low-enriched uranium fuel fabrication facilities, and uranium
hexafluoride production facilities. The uranium mill facilities have a separate
inspection program.

Currently, NRC regulates 10 major fuel cycle facilities to ensure they are
operating safely. Title 10 of the Code of Federal Regulations (CFR), codifies the
rules for regulating fuel cycle facilities. The CFR is divided into parts covering




1
  On June 23, 2006, OIG issued its first report, Audit of NMSS’ Procedures for Processing
Inspection Guidance (OIG-06-A-13), regarding NRC’s regulation of nuclear fuel cycle facilities.
                                            Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities



specific regulatory areas. As such, two fuel cycle facilities are regulated under
10 CFR Part 76,2 seven facilities (including one that was recently approved for a
license) are regulated under 10 CFR Part 70,3 and one facility is regulated under
10 CFR Part 40.4

The Office of Nuclear Material Safety and Safeguards (NMSS) has overall
responsibility for the agency’s regulation of fuel cycle facilities. Specifically, the
Division of Fuel Cycle Safety and Safeguards (FCSS) in NMSS is responsible for
developing, implementing, and evaluating overall agency safety policy for the fuel
cycle facilities. In fiscal year 2006, for fuel cycle facility regulation, FCSS was
authorized a staff of 87 with an estimated budget of $11.7 million for salaries and
benefits, and $1.3 million for travel, training, and contract support costs.

NRC’s current fuel cycle facility oversight program relies primarily on inspections.
Inspections at fuel cycle facilities occur several times a year and typically cover
activities such as nuclear criticality control, chemical process, emergency
preparedness, fire safety, and radiation safety. NRC’s inspection results are
documented in inspection reports.

PURPOSE

This audit’s objective was to determine if NRC has an effective and efficient
approach to fuel cycle facility oversight.

FINDING

The agency’s current Fuel Cycle Facility Oversight Program would be enhanced
by developing and implementing a framework that is modeled after a structured
process, such as the ROP. NRC staff identified needed improvements in its
oversight program for regulating fuel cycle facilities. To address such issues,
staff began developing a structured process that emulates the ROP. However,
NRC stopped short of fully developing and implementing a framework that would
improve NRC’s Fuel Cycle Facility Oversight Program. Today, the staff-identified
improvements from 2000 are still needed. As a result, the framework for
regulating fuel cycle facilities is not as robust as it could be.

Staff Identified Needed Improvements

Over the years, NRC staff reviewed the agency’s regulation of major fuel cycle
facilities and recommended changes to improve the program. In the early 1990s,
an agency task force issued NUREG-1324, "Proposed Method for Regulating
Major Materials Licensees." The NUREG highlighted findings and


2
  10 CFR Part 76 - Certification of Gaseous Diffusion Plants
3
  10 CFR Part 70 - Domestic Licensing of Special Nuclear Material
4
  10 CFR Part 40 - Domestic Licensing of Source Material
                                               2
                                              Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities


recommendations for correcting deficiencies in NRC’s regulations and its
licensing and inspection programs for fuel cycle facilities. The recommendations
identified a number of weaknesses in areas such as quality assurance,
maintenance, training and qualification, management controls and oversight,
configuration management, criticality safety, and fire protection. In response, the
staff implemented some changes to the program and deferred others. By 2000,
staff began work on a proposed Revised Fuel Cycle Facility Oversight Program
to emulate the newly developed ROP. A hallmark of the ROP is continual self-
assessment and improvement by NRC.

NRC designed the ROP to verify that commercial nuclear power plant licensees
operate in accordance with agency rules and regulations to identify and resolve
issues before the safety of plant operations is affected. The process for reactor
oversight includes risk-informed baseline inspections, use of licensees’
performance indicator data, and a revised reactor assessment process. A goal
of the ROP is to effectively focus attention on risk-significant activities while
reducing unnecessary regulatory burden on licensees. The process assesses
key performance areas and each area contains “cornerstones” of safety to reflect
the essential aspects of safe plant operation. The ROP uses inspection findings
developed from selective examinations and performance indicator data to assess
plant performance within the framework of the safety cornerstones. The process
employs a significance determination process5 to evaluate the safety significance
of inspection findings.

The ROP provides a structured framework for NRC’s regulation of commercial
nuclear power plants. On the basis of the information attained through the ROP,
NRC takes a graded approach to its oversight, increasing the level of regulatory
attention to plants where safety is declining. NRC assesses overall plant
performance and communicates the results to the public.

        Proposed Revised Fuel Cycle Facility Oversight Program

To address shortcomings with the oversight program, staff identified a number of
features that the Revised Fuel Cycle Facility Oversight Program should contain.
These features included using risk-informed methods to measure facility
performance, and employing a predictable, graded process to focus NRC
oversight based on risk and acceptability of performance. The revised program
would include a baseline level of oversight that would be carried out for all
licensees through the inspection program. The inspection program would focus
on the most safety- and safeguards-significant plant activities, hazards, risks,
controls, and management measures, and would supplement the performance
indicator information volunteered by licensees. Staff believed that significant
implementation processes would include:



5
 The significance determination process is a series of analytical steps that NRC staff use to
evaluate inspection findings and designate the significance of those findings.
                                                3
                                            Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities


                   •   a framework for oversight
                   •   cornerstones of safety

       Framework for Oversight

The framework for oversight would include a process for gathering and
processing performance information. The proposed framework would begin with
significance evaluations, which consist of the different types of inspections6 that
NRC performs. Inspection findings would be evaluated for risk using a
significance determination process based on results from integrated safety
analyses that licensees prepare under 10 CFR Part 70. NRC intended to use
licensee provided performance indicator data to complement its core inspection,
allowing NRC to reduce the scope of these inspections, thereby enhancing
efficiency for both the NRC and the licensees. Next, the overall assessment
process was to assess licensee performance using an action matrix.
Stakeholder communication, another important step, would include assessment
and inspection reports, inspection plans, and, if available, performance
indicators. This information would be made available through a variety of means,
including NRC’s website, press releases, and public meetings. Also, within its
framework, NRC planned to maintain the capability to perform generic issue
resolution, event response, and special inspections.

       Cornerstones of Safety

NRC intended to use the fuel cycle facility cornerstones to provide reasonable
assurance that NRC’s mission/goals are met when the cornerstone objectives
are met. Staff identified four key strategic performance areas and the associated
cornerstones to reflect safety aspects of operations. NRC’s mission would be
addressed through the following four performance areas:

                   •   facility operations safety
                   •   nuclear related hazard safety
                   •   special nuclear material safeguards
                   •   classified information and material safeguards

The cornerstones associated with the facility operations safety performance area
would be initiating events, systems and barriers, and emergency preparedness.
Under nuclear related hazard safety, the cornerstones would be occupational
and public. The cornerstones for special nuclear material safeguards and
classified information and material safeguards would be initiating events,
systems and barriers, and contingency preparedness. The proposed fuel cycle
facility cornerstones also would include cross-cutting considerations such as a
safety and safeguards conscious work environment; human performance; and
problem identification, resolution, and correction.


6
  Inspections include: Special Inspections, Event Response, General Issues, and Baseline
Inspections.
                                              4
                                           Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities


Commission Directed Staff to Proceed

In 2000, staff was developing the Revised Fuel Cycle Facility Oversight Program
and implementing changes to its regulations to 1) improve efficiency of its
regulatory processes and 2) provide for objective assessments and predictable
responses. Staff was also in the midst of implementing its recently amended
regulations (10 CFR Part 70) governing the domestic licensing of special nuclear
materials for fuel cycle facility licensees. Through the amended 10 CFR Part 70,
the agency sought to achieve its objectives through a risk-informed approach.
The Part 70 amendments included, among other things, the requirement for
affected licensees to perform integrated safety analyses (ISA); the establishment
of performance requirements; and the requirement that safety bases be
maintained, and changes reported to NRC.

In early 2001, through a staff requirements memorandum,7 the Commission
directed the staff to proceed as planned with the proposed Revised Fuel Cycle
Facility Oversight Program. However, the Commission cautioned the staff to
ensure that revision efforts, and the resources associated with them, do not
negatively impact full implementation of the recently revised 10 CFR Part 70 and
its associated guidance.

Work On Revised Program Stopped

On March 18, 2002, the Executive Director for Operations (EDO) sent a memo to
the Commission providing an update regarding the proposed Revised Fuel Cycle
Facility Oversight Program. In that memo, the EDO suggested that essential
features of the proposed Revised Fuel Cycle Facility Oversight Program be
deferred until after the 10 CFR Part 70 revisions were implemented. However,
the EDO did not give a date or predictable timeframe for restarting activities
associated with the oversight program.

Ten days after the EDO sent his memo to defer work on the proposed Revised
Fuel Cycle Facility Oversight Program, the decision was made to officially stop
work. On March 28, 2002, the Office of the Secretary annotated its tracking
system that the staff requirements memorandum8 tasking the staff to proceed
was to be closed out. The Commission stopped tracking the staff’s progress on
revising the oversight program. And, staff ceased actions that it had deferred
regarding the development and implementation of improvements for the Revised
Fuel Cycle Facility Oversight Program. Because the agency stopped actions to
develop and implement significant improvements to the Revised Fuel Cycle
Facility Oversight Program, NRC lacks a framework, such as the ROP, for
regulating fuel cycle facilities.


7
  SRM-00-0222 -- Date: January 17, 2001; Subject: Briefing on the Status of the Fuel Cycle
Facility Oversight Program Revision (SECY-00-0222); 9:30 A.M.; Wednesday, December 20,
2000; Commissioners’ Conference Room, One White Flint North, Rockville, Maryland (Open to
Public Attendance)
8
  SRM-00-0222
                                             5
                                       Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities


Agency Progress

Although work stopped on the Revised Fuel Cycle Facility Oversight Program,
NRC has made some progress on implementing the Part 70 revisions,
specifically through ISAs and revised licensee performance reviews.

       Integrated Safety Analyses

ISAs are systematic analyses conducted to identify facility and external hazards
and their potential for initiating accident sequences, the potential accident
sequences, their likelihood and consequences, and the items relied on for safety.
In accordance with 10 CFR Part 70, each licensee is required to conduct and
maintain an ISA of appropriate detail and complexity. By April 18, 2001,
licensees were required to submit their ISA plans to NRC for approval.
Licensees then had until October 18, 2004, to complete their ISA, correct all
unacceptable performance deficiencies, and submit an ISA summary for NRC
approval. However, over 2 years later, NRC still has not approved all of the ISA
summaries. A senior NRC manager stated that NRC is behind on reviewing and
approving the ISA summaries due to limited staff resources and other technical
issues.

Licensees under 10 CFR Part 40 and Part 76 are not required to do ISAs.
However, staff stated that the Part 40 licensee is voluntarily performing a function
similar to the ISAs required for Part 70 licensees.

       Licensee Performance Reviews

The Licensee Performance Review process is designed to provide an
assessment of licensee performance to NRC management, while minimizing staff
effort beyond that required for routine fuel cycle facility licensing and inspection
activities. The Licensee Performance Review process entails an NRC review of
each fuel cycle facility licensee’s performance and the results of the reviews may
be used to support changes in the inspection and licensing program for the
subject facility to focus NRC resources where they are most needed. The
information gained through this process is also provided to the licensee’s senior
management and to interested members of the public. In 2002, NRC revised the
Licensee Performance Review process in an effort to make it risk-informed and
more timely, objective, and transparent. NRC also began the consolidation of
inspection manual chapters to make them more risk-informed.

Improvements Still Needed

Senior agency officials acknowledged that more improvements need to be made
to NRC’s Fuel Cycle Facility Oversight Program. During a public meeting in
December 2000, staff stated that regulation of the fuel cycle facilities was
fundamentally sound. However, NRC staff identified significant improvements
that should be considered. NRC senior management confirmed that those
improvements are still needed today. NRC’s framework for regulating fuel cycle

                                         6
                                         Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities


facilities is not as robust as it could be. The regulation of fuel cycle facilities
could be enhanced with the following staff-identified improvements:

                  •   Reduce regulatory burden
                  •   Increase effectiveness, efficiency, and realism
                  •   Increase public confidence
                  •   Provide objective assessments
                  •   Provide predictable and timely responses to licensee
                      performance
                  •   Improve safety performance

RECOMMENDATION

The Office of the Inspector General recommends that the Executive Director for
Operations:

   1. Fully develop and implement a framework for the Fuel Cycle Facility
      Oversight Program that is consistent with a structured process, such as
      the ROP.

AGENCY COMMENTS

At an exit conference on November 2, 2006, NRC officials agreed with the
report’s recommendation and provided editorial suggestions, which OIG
incorporated as appropriate.

Please provide information on actions taken or planned on the recommendation
within 30 days of the date of this memorandum. Actions take or planned are
subject to OIG follow-up, as stated in the attached instructions.




                                            7
                                     Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities



SCOPE AND METHODOLOGY

To accomplish the audit’s objective, the OIG audit team reviewed various
Commission papers and transcripts, and other related documents. The audit
team also interviewed senior managers and staff in NRC offices including NMSS,
SECY, and Region II. This work was conducted from January 2006 through
August 2006 in accordance with generally accepted Government auditing
standards and included a review of internal controls related to the objective of
this audit. The work was conducted by Anthony Lipuma, Team Leader;
Sherri Miotla, Audit Manager; Mike Cash, Senior Technical Advisor;
James McGaughey, Senior Analyst; and Andrea Ferkile, Analyst.

cc:   Chairman Klein
      Commissioner McGaffigan
      Commissioner Merrifiled
      Commissioner Jaczko
      Commissioner Lyons
      M. Johnson, OEDO




                                       8
                                     Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities


ELECTRONIC DISTRIBUTION

John T. Larkins, Executive Director, Advisory Committee on Reactor
  Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
   and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV




                                       9
